Followup Evaluation of the Defense Contract Audit Agency support to Special Access Programs
Department of Defense
Office of Inspector General -- Audit
Followup Evaluation of the Defense Contract Audit Agency support to Special Access Programs -- Report No. PO-97-057
Date:  9/30/97
The objective of the evaluation was to determine the adequacy and use of DCAA audit support to acquisition special access programs.  The audit determined that overall the deficiencies identified in prior reviews have generally been corrected.  However, as previously reported, some special access program offices did not request DCAA services.
Any comments or suggestions should be sent to:  auditnet@dodig.osd.mil